No. 20A21

In the Supreme Court of the United States

BEVERLY CLARNO, Oregon Secretary of State,
Applicant,
v.
PEOPLE NOT POLITICIANS OREGON, COMMON CAUSE, LEAGUE OF WOMEN
VOTERS OF OREGON, NAACP OF EUGENE/SPRINGFIELD, INDEPENDENT
PARTY OF OREGON, and C. NORMAN TURRILL,
Respondents.
DECLARATION OF STEPHEN ELZINGA IN SUPPORT OF
OPPOSITION TO APPLICATION FOR STAY

STEPHEN ELZINGA
SHERMAN, SHERMAN,
JOHNNIE & HOYT, LLP
693 Chemeketa Street NE
Salem, OR 97301
KATHAY FENG
DAN VICUNA
COMMON CAUSE
453 S. Spring Street, Suite 401
Los Angeles, CA 90013

R. ADAM LAURIDSEN
JAY RAPAPORT
Counsel of Record
DAVID J. ROSEN
TARA M. RANGCHI
KEKER, VAN NEST &
PETERS LLP
633 Battery Street
San Francisco, CA 94111
(415) 391-5400
jrapaport@keker.com

Counsel for Respondents

1389099

I, Stephen Elzinga, declare as follows:
1.

I am an attorney licensed to practice in the State of Oregon and one of

Respondents’ counsel. I have personal knowledge of the facts stated in this
declaration.
2.

On July 14, 2020, the Oregon Secretary of State issued a press release

stating that she was “not requesting an appeal” of the District Court’s preliminary
injunction in this matter at that time. Attached as Exhibit A is a true and correct
copy of the press release, which is available at https://bit.ly/3fCoxXF.
3.

On July 15, 2020, the Oregon Attorney General announced that she

would appeal the District Court’s preliminary injunction. Attached as Exhibit B is a
true and correct copy of an article from The Oregonian/Oregon Live about the
Attorney General’s decision, which is available at https://bit.ly/2WoNpdW. Attached
as Exhibit C is a true and correct copy of an article from Oregon Public
Broadcasting about the Attorney General’s decision, which is available at
https://bit.ly/2XlSiEL.
4.

On July 29, 2020, I emailed Benjamin Gutman, counsel of record for

the Attorney General in appellate proceedings, to ask that Mr. Gutman provide
evidence that the Secretary had authorized the Attorney General’s appeal in
accordance with Oregon law. Mr. Gutman responded that he was “not in a position
to comment on our office’s discussions with the Secretary of State or her staff.”
Attached as Exhibit D is a true and correct copy of this email correspondence.

1
1389099

5.

On July 30, 2020, I spoke with Mr. Gutman by telephone and again

asked that the Attorney General provide some evidence of the Secretary’s
authorization of the appeal. Mr. Gutman responded that the Attorney General
would not provide such evidence.
6.

That evening, I emailed Mr. Gutman to memorialize our phone call

and to offer him another opportunity to provide evidence that the Attorney
General’s appeal was properly authorized. I advised Mr. Gutman that, absent such
evidence, Respondents would raise in this appeal the issue of whether the appeal
was properly authorized. In his response, Mr. Gutman again declined to provide
such evidence. Attached as Exhibit E is a true and correct copy of this email
correspondence.
7.

On the same day, the Secretary of State’s staff lead on initiatives and

signature verification, Summer Davis, emailed People Not Politicians’ authorized
agent, Rebecca Tweed, to confirm that signature verification for Initiative Petition
57 was complete, and that the petition had met the signature threshold set by the
District Court’s preliminary injunction with a validity rate of over 97%. Attached as
Exhibit F is a true and correct copy of Ms. Davis’ email to Ms. Tweed.
I declare under penalty of perjury under the laws of the United States of
America that the foregoing is true and correct. Executed on August 4, 2020 at
Salem, Oregon.

___________________________
STEPHEN ELZINGA

2
1389099

Exhibit A

Newsroom Detail

Secretary of State Bev Clarno Announces
Extension of Signature Gathering for Initiative
Petition 57
July 14, 2020
Salem, OR—In light of the recent opinion and order from U.S. District Judge Michael McShane,
Secretary of State Bev Clarno has announced she will continue to accept signatures from Chief
Petitioners for Initiative Petition 57.
IP 57 is seeking to place an initiative on the November 2020 ballot that would amend the
Oregon Constitution to create an independent redistricting commission.
Per the court order, IP 57 will have a reduced signature threshold and an extension until August
17. The Secretary of State Elections Division will review and certify signatures for IP 57 through
its normal process.
Secretary Clarno is not requesting an appeal to the ruling at this time. This ruling applies only
to IP 57 and does not extend to other signature petition efforts without a separate court order.
“As Oregon’s chief elections officer, I am deeply committed to expanding voter access and
ensuring the integrity of Oregon’s elections,” said Secretary Clarno. “I and our Elections
Division team will remain focused on the smooth administration of our election processes.”

Attachments

Categories:
Elections & Voting

/

Exhibit B

Set
Weather

Subscribe

Protect your family with local news you need. Subscribe to OregonLive.

Subscriber Exclusive

Oregon secretary of state, attorney
general clash on lowering bar to ballot
measure
Updated Jul 15, 2020; Posted Jul 15, 2020

Oregon Attorney General Ellen Rosenblum, shown here at a March event warning residents against
imposter and telemarketing scam calls, has appealed to the Ninth Circuit Court of Appeals to prevent a
redistricting initiative from qualifying for the November ballot. Dave Killen / staff Dave Killen

By Hillary Borrud | The Oregonian/OregonLive

Oregon Attorney General Ellen Rosenblum is asking the Ninth Circuit Court
of Appeals to step in to prevent an initiative to put an independent
commission in charge of redrawing Oregon’s electoral map from qualifying
for the November ballot.
Rosenblum’s administration filed the appeal Wednesday morning, despite
Secretary of State Bev Clarno’s statement Tuesday night that she would not
appeal a federal judge’s ruling last week that the state must make it easier
for the initiative to qualify due to the pandemic.
Advertisement

Although Clarno’s name is listed on the appeal, she did not request it,
spokeswoman Laura Fosmire wrote in an email Wednesday. Rather,
Rosenblum decided to appeal “for the state on her authority as chief legal
officer.”
In response to an inquiry by The Oregonian/OregonLive Wednesday,
Rosenblum issued a statement saying that “any final decision made in this
case could have long reaching impacts for the state and on future ballot
initiatives.”

“We are seeking clarity from the federal appellate court (the Ninth Circuit)
on a critical, time­sensitive issue pertaining to state sovereignty,”
Rosenblum said. “While Secretary Clarno did not ask us to appeal Judge
McShane’s ruling, the Secretary deferred to our view that the overall
interests of the state require us to file this appeal.”
Initiative Petition 57 would transfer the once­a­decade job of redrawing
Oregon’s legislative and congressional district lines from the state
Legislature to a new 12­member commission. Backers include good
government groups, business associations and branches of the NAACP.
Clarno had announced Tuesday night that the initiative campaign was
getting additional time to gather signatures to qualify the initiative for
ballot, in response to the federal judge’s order.
The campaign will also face a lower threshold to qualify — less than half as
many valid signatures as normal — due to the difficulty of collecting
signatures during the coronavirus public health emergency and Oregon’s
stay­home orders.
Clarno previously held out against the redistricting campaign’s coronavirus
accommodation request. But U.S. District Court Judge Michael J. McShane
last week ordered her to either accept the signatures the People Not
Politicians campaign gathered through its largely mail­in collection effort, or
set a lower threshold of 58,789 valid signatures by Aug. 17. The normal
requirement was 149,360 valid signatures by July 2. Clarno chose the latter
option.
There are currently two initiatives Oregon voters are certain to see on their
November ballots. Initiative Petition 34 would legalize the therapeutic use of
psychedelic mushrooms and Initiative Petition 44, which would
decriminalize possession of small amounts of all drugs and divert most of
the state’s pot tax revenue to fund drug treatment centers. Voters will also
decide on two legislative referrals, one to amend the state constitution to
explicitly allow campaign contribution limits and one to raise tobacco taxes
to pay for Medicaid. The second measure is such a high priority for

lawmakers that they ditched a bill to ban flavored vapes in February after a
tobacco lobbyist told them it would decrease tax revenues from the
proposed tax hike.
Since the July 2 signature deadline has already passed, Rosenblum’s appeal
if successful would effectively prevent supporters from getting their
redistricting proposal before voters in November.
The initiative also faces a state court challenge from the political nonprofit
Our Oregon, which receives much of its financial support from the state’s
public employee unions, and Planned Parenthood Advocates of Oregon.
They argue the initiative violates a procedural requirement in the Oregon
Constitution that initiatives only amend one provision of the constitution at
a time, and they say the initiative would run afoul of the constitution’s free
speech protections, for example by barring lobbyists and political party
leaders from serving on the redistricting commission.
Nationally, Democrats including former President Barack Obama and
former Attorney General Eric Holder are pushing for states to switch to
independent redistricting commissions. That effort is focused on
Republican controlled states. In Oregon, neither political party has explicitly
endorsed the plan but the Republican party has issued supportive
statements.
Democrats control Oregon’s Legislature and most statewide offices, with
the exception of the secretary of state’s office. Supporters of the
redistricting initiative have argued lawmakers face an inherent conflict of
interest in redrawing the boundaries of the districts where they will run for
re­election.
If lawmakers cannot complete the job of redistricting, which they have failed
to do in all but one case over the last century, Oregon relies on the secretary
of state to step in. Clarno, who is serving the remainder of Dennis
Richardon’s term, is not running for election this year so the next secretary
of state will almost certainly be either Democratic state Sen. Shemia Fagan
or Republican state Sen. Kim Thatcher.

Fagan narrowly won the May primary with public employee unions ponying
up roughly 80% of the funding for her 2 1/2 month campaign. Fagan has
raised approximately $900,000 since 2019, according to state campaign
finance records. Thatcher effectively ran unopposed in her primary and
reported raising roughly $180,000 since 2019, with the largest
contributions — $10,000 each — from Frank Timber Resources, her family’s
company Highway Specialties and Oregon Firearms Federation.
— Hillary Borrud | hborrud@oregonian.com | @hborrud
Subscribe to Oregonian/OregonLive newsletters and podcasts for the
latest news and top stories.
Note to readers: if you purchase something through one of our affiliate links we may earn a
commission.

Registration on or use of this site constitutes acceptance of our User
Agreement, Privacy Policy and Cookie Statement, and Your California
Privacy Rights (each updated 1/1/20).
© 2020 Advance Local Media LLC. All rights reserved (About Us).
The material on this site may not be reproduced, distributed, transmitted,
cached or otherwise used, except with the prior written permission of
Advance Local.
Community Rules apply to all content you upload or otherwise submit to this site.
Ad Choices

Exhibit C

contribute now

AUG. 3, 2020

In The News

Coronavirus updates

Steel Bridge closed

Oregon's wildfire risk

Black Is King

POLITICS

Oregon attorney general takes fight
against redistricting initiative to US
Supreme Court
By Jeff Mapes (OPB)
July 29, 2020 6:28 p.m. Updated: July 30, 2020 10:56 a.m.

A federal judge earlier ruled in favor of a lower signature threshold to
qualify for the ballot, given the ongoing coronavirus pandemic.

In this July 8, 2020, file photo the Supreme Court is shown in Washington, D.C. Oregon Attorney General Ellen
STREAMING
NOW a decision regarding an anti-gerrymandering initiative petition to the nation's high court.
Rosenblum
is appealing

The /Daily
Andrew Harnik
AP

Oregon Attorney General Ellen Rosenblum intensified her legal battle
Wednesday against a ballot measure that would put the redrawing of political
district lines into the hands of a nonpartisan commission.
THANKS TO OUR SPONSOR:

Become a Sponsor

Rosenblum asked U.S. Supreme Court Justice Elena Kagan to issue an
emergency stay blocking attempts to put the measure on the November ballot
in Oregon.
In her legal filing with the nation’s high court, Rosenblum said U.S. District
Judge Michael McShane erred when he issued a July 10 ruling that gave the
anti-gerrymandering measure a clear path to the ballot. McShane said the state
needed to lower its signature threshold because the pandemic made it too hard
for the proposed constitutional amendment to qualify.
McShane’s ruling “encroaches on the state’s sovereign authority to determine
for itself the process by which its own constitution can be amended,”
Rosenblum wrote. “Changing the rules for initiatives by judicial fiat, this late in
the election cycle only for one privileged measure, is legally unsupportable and
fundamentally unfair.”
THANKS TO OUR SPONSOR:

Become a Sponsor

While the matter of drawing district lines may seem arcane, it could have a big
impact on political power in Oregon. Currently, the Oregon Legislature redraws
congressional and legislative district lines to account for population changes.
Following the 2020 Census, Democrats in the Legislature and governor’s office
are poised to have sole control over those changes for the first time in modern
Oregon history. Control over redistricting could help Democrats maintain their
three-fifths supermajority in the Legislature, which allows them to raise taxes
without needing Republican votes. It also helps give Democrats a better shot at
winning a new congressional seat that Oregon is expected to get after
redistricting.
STREAMING NOW

The Daily

The redistricting measure is sponsored by a coalition of government watchdog
groups and business organizations that are politically close to Republicans. The
two chief sponsors represent the Oregon League of Women Voters and the
Oregon Farm Bureau.
McShane cut the needed number of voter signatures from nearly 150,000 to
just under 59,000 and extended the normal deadline for gathering them from
July 3 to Aug. 17.
Secretary of State Bev Clarno, a Republican, accepted McShane’s decision and
said she would place the measure on the ballot if it meets the new signature
threshold. Clarno’s office said that she “did not request the appeal; Attorney
General Rosenblum has made the decision on her own authority as chief legal
officer.”
Rosenblum, a Democrat, moved forward with an appeal listing Clarno as the
“nominal defendant” while saying that the attorney general can “intervene in
defense of the constitutionality of the state law.”
A three-judge panel for the U.S. 9th Circuit Court of Appeals refused
Rosenblum’s request for an emergency stay of McShane’s decision and has
scheduled oral arguments for Aug. 13 on whether to overturn his decision.
In her filing with the Supreme Court, Rosenblum said it is unclear whether the
9th Circuit would act before the state needs to finalize the ballot for the
November election. Rosenblum’s filing said that after Aug. 28, it “will be
extraordinarily difficult” to make changes.
THANKS TO OUR SPONSOR:

Become a Sponsor

OPB’s critical reporting is made possible by the
power of member support. Be a part of it!
STREAMING NOW

The Daily

Become a Sustainer now

Schedules

 Manage My Membership

RSS Feeds

Contact Us

Sponsorship

Maps & Directions

Help

Notifications

Privacy Policy
FCC Public Files
Terms of Use
Editorial Policy
SMS T&C
Contest Rules
Accessibility

STREAMING NOW

The Daily

Exhibit D

Steve Elzinga
From:
Sent:
To:
Cc:
Subject:

Gutman Benjamin <Benjamin.Gutman@doj.state.or.us>
Wednesday, July 29, 2020 9:40 AM
Steve Elzinga
Adam Lauridsen
RE: People Not Politicians v. Clarno

Categories:

Filed to FileSystem

Thank you for your courtesy on the electronic service. I’m not in a position to comment on our office’s discussions with
the Secretary of State or her staff, but I will relay your request.
Regards,
Ben

Benjamin Gutman
503.378.4402
From: Steve Elzinga <steve@shermlaw.com>
Sent: Wednesday, July 29, 2020 9:38 AM
To: Gutman Benjamin <Benjamin.Gutman@doj.state.or.us>
Cc: Adam Lauridsen <alauridsen@keker.com>
Subject: RE: People Not Politicians v. Clarno
Ben,
We are happy to agree to electronic service. Please send copies to both Adam and myself at the email addresses on this
email.
Did the Secretary of State authorize the filing of this appeal? See Or. Rev. Stat. § 180.060(9). If so, please provide
admissible evidence of that authorization by July 31, including for both the Ninth Circuit appeal and the Supreme Court
stay application.
Thank you,
Steve
Steve Elzinga
Attorney

SHERMAN SHERMAN JOHNNIE & HOYT, LLP - Attorneys at Law | www.shermlaw.com
Ph. 503-364-2281 | Fax 503-370-4308 | 693 Chemeketa St. NE Salem, OR 97301
SSJH is a member of LawPact, an international association of independent business law firms. www.lawpact.org

1

CONFIDENTIALITY NOTICE: This e-mail may contain information that is privileged, confidential, or otherwise exempt from disclosure
under applicable law. Any inadvertent disclosure shall not compromise or waive the attorney-client privilege as to this communication
or otherwise. If it appears from the context or otherwise that you have received this e-mail in error, please advise me immediately by
reply e-mail, keep the contents confidential, and immediately delete the message and any attachments from your system. Nothing in
this e-mail should be construed as an electronic signature or an act constituting a binding contract.

IMPORTANT NOTICE:

The lawyers and staff of Sherman Sherman Johnnie & Hoyt LLP are
committed to both continuing to service your legal needs and supporting local efforts to slow the spread of
covid-19. We are honoring the Governor’s order to implement remote work to the fullest extent possible. We
remain available to you by phone, video conference or email. As circumstances continue to evolve we will keep
you informed of the best manner to reach us. Thank you for your support and cooperation as we meet your
needs and help protect the health of our community.
From: Gutman Benjamin <Benjamin.Gutman@doj.state.or.us>
Sent: Tuesday, July 28, 2020 6:46 PM
To: Steve Elzinga <steve@shermlaw.com>; Adam Lauridsen <alauridsen@keker.com>
Subject: People Not Politicians v. Clarno
Steve and Adam,
We’re planning to file an application for a stay of the preliminary injunction with the U.S. Supreme Court tomorrow. I
wanted to give you a heads up that it would be coming.
I also wanted to see if you would agree to electronic service of the application rather than having us mail you a
copy. The Court has issued a COVID‐19 order strongly encouraging parties to use electronic service if feasible:
https://www.supremecourt.gov/orders/courtorders/041520zr_g204.pdf
If you agree to electronic service, please let me know which email address or addresses you’d like us to use. I would of
course agree to electronic service of any response or other filings in the Supreme Court in return; it would be helpful if
you would email both me and AppellateService@doj.state.or.us to ensure that it’s filed properly here.
If you would like to discuss any of this, please let me know – I can be reached at 971‐209‐0465.
Regards,
Ben

Benjamin Gutman
Solicitor General | Appellate Division
Oregon Department of Justice
503.378.4402
*****CONFIDENTIALITY NOTICE*****
This e‐mail may contain information that is privileged, confidential, or otherwise exempt from disclosure under
applicable law. If you are not the addressee or it appears from the context or otherwise that you have received this e‐
mail in error, please advise me immediately by reply e‐mail, keep the contents confidential, and immediately delete the
message and any attachments from your system.
************************************
2

Exhibit E

Steve Elzinga
From:
Sent:
To:
Cc:
Subject:

Gutman Benjamin <Benjamin.Gutman@doj.state.or.us>
Thursday, July 30, 2020 6:46 PM
Steve Elzinga
Adam Lauridsen
RE: Appeal Authorization Evidence

Categories:

Filed to FileSystem

I appreciate your call, Steve, and I understand your request, but I disagree with your reading of ORS 180.060(9). We do
not have a “burden to demonstrate that the appeal is properly before the Court,” and I am not aware that we have ever
produced the sort of evidence you are requesting in an appeal. I understand that you have a different view, and we’ll
have to see what the courts think.
Regards,
Ben

Benjamin Gutman
503.378.4402
From: Steve Elzinga <steve@shermlaw.com>
Sent: Thursday, July 30, 2020 6:42 PM
To: Gutman Benjamin <Benjamin.Gutman@doj.state.or.us>
Cc: Adam Lauridsen <alauridsen@keker.com>
Subject: Appeal Authorization Evidence
*CAUTION EXTERNAL EMAIL* This email originated from outside of DOJ. Treat attachments and links with caution. *CAUTION
EXTERNAL EMAIL*

Ben,
Thank you for taking the time to talk this afternoon. As discussed, despite our repeated requests, the Attorney General
has not provided any evidence that Secretary of State Clarno authorized Oregon’s appeal to the Ninth Circuit or
Application for Stay to the Supreme Court. You reiterated on the phone today that your office has no intention of
providing any such evidence.
Under applicable Oregon law, it is the Attorney General’s burden to demonstrate that the appeal is properly before the
Court. See Or. Rev. Stat. § 180.060(9). We once again request that you provide evidence by July 31 that the Secretary
authorized this appeal. Without such evidence, we will raise this issue in our filings.
Thank you,
Steve
Steve Elzinga
Attorney

1

SHERMAN SHERMAN JOHNNIE & HOYT, LLP - Attorneys at Law | www.shermlaw.com
Ph. 503-364-2281 | Fax 503-370-4308 | 693 Chemeketa St. NE Salem, OR 97301
SSJH is a member of LawPact, an international association of independent business law firms. www.lawpact.org

CONFIDENTIALITY NOTICE: This e-mail may contain information that is privileged, confidential, or otherwise exempt from disclosure
under applicable law. Any inadvertent disclosure shall not compromise or waive the attorney-client privilege as to this communication
or otherwise. If it appears from the context or otherwise that you have received this e-mail in error, please advise me immediately by
reply e-mail, keep the contents confidential, and immediately delete the message and any attachments from your system. Nothing in
this e-mail should be construed as an electronic signature or an act constituting a binding contract.

IMPORTANT NOTICE:

The lawyers and staff of Sherman Sherman Johnnie & Hoyt LLP are
committed to both continuing to service your legal needs and supporting local efforts to slow the spread of
covid-19. We are honoring the Governor’s order to implement remote work to the fullest extent possible. We
remain available to you by phone, video conference or email. As circumstances continue to evolve we will keep
you informed of the best manner to reach us. Thank you for your support and cooperation as we meet your
needs and help protect the health of our community.
*****CONFIDENTIALITY NOTICE*****
This e‐mail may contain information that is privileged, confidential, or otherwise exempt from disclosure under
applicable law. If you are not the addressee or it appears from the context or otherwise that you have received this e‐
mail in error, please advise me immediately by reply e‐mail, keep the contents confidential, and immediately delete the
message and any attachments from your system.
************************************

2

Exhibit F

From: DAVIS Summer S * SOS <Summer.S.DAVIS@oregon.gov>
Sent: Thursday, July 30, 2020 12:23 PM
To: Rebecca Tweed <Rebecca@groworegon.com>
Subject: Results
Rebecca,
We’ve completed verification of IP 2020-057. The petition has met the threshold set by Judge McShane.
I’m currently waiting on information from Multnomah County on 1 voter. Once I have that information I
will get you final numbers.
Validity rate of the signatures we verified yesterday and today was over 97%. There was one duplicate.
Summer

